Tr

OCKLE

2311 Douglas Street CA L Brief E-Mail Address:
= = riers
Omaha, Nebraska 68102-1214 8a | Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
i
Fax: (402) 342-4850 No. 21-70

GARY E. ALBRIGHT, ET AL.,
Petitioners,
v.
UNITED STATES OF AMERICA,
Respondent.

AFFIDAVIT OF SERVICE

1, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that | did, on the 17th day of August, 2021, send out
from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF THE CATO INSTITUTE, NATIONAL ASSOCIATION
OF REVERSIONARY PROPERTY OWNERS, REASON FOUNDATION, SOUTHEASTERN LEGAL FOUNDATION,
AND PROPERTY LAW PROFESSORS SHELLEY ROSS SAXER AND JAMES W. ELY, JR.. AS AMICI CURIAE IN
SUPPORT OF PETITIONERS in the above entitled case. All parties required to be served have been served by third-party
commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:
Ilya Shapiro Mark F. (Thor) Hearne, II
Trevor Burrus Counsel of Record
CATO INSTITUTE Stephen S. Davis
1000 Mass. Ave., N.W. TRUE NORTH LAW, LLC
Washington, DC 20001 112 S. Hanley Rd., Suite 200
(202) 842-0200 St. Louis, MO 63105
ishapiro@cato.org (314) 296-4000

thor@truenorthlawgroup.com

  

Subscribed and sworn to before me this 17th day of August, 2
I am duly authorized under the laws of the State of Nebraska

GENERAL NOTARY-State of Nebraska
A RENEE J. GOSS Konee. 9. Yoo h/ Onda bh Chk

Notary Public Affiant

1,
administer oaths.

 

My Comm. Exp. September 5, 2023

 

41323
 

Attorneys for Petitioners

James Harold Hulme
Counsel of Record

Arent Fox LLP 202-857-6144
1717 K Street, NW
Washington, DC 20006-5342

james.hulme@arentfox.com

Party name: Gary E. Albright, et al

 

 

Attorneys for Respondent

Elizabeth B. Prelogar
Counsel of Record

Party name: United States

Acting Solicitor General

United States Department of Justice 202zN EON
950 Pennsylvania Avenue, NW

Washington, DC 20530-0001

SupremeCtBriefs@USDOJ.gov

 

 
